<html>
<title> - ORGANIZATIONAL MEETING ON ADOPTION OF COMMITTEE RULES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
         ORGANIZATIONAL MEETING ON ADOPTION OF COMMITTEE RULES 

=======================================================================

                                HEARING

                               before the

               SELECT COMMITTEE TO INVESTIGATE THE VOTING
                    IRREGULARITIES OF AUGUST 2, 2007
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2007

                               __________

                             WASHINGTON, DC

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

46-057 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















SELECT COMMITTEE TO INVESTIGATE THE VOTING IRREGULARITIES OF AUGUST 2, 
                                  2007

             WILLIAM D. DELAHUNT, Massachussetts, Chairman
ARTUR DAVIS, Alabama                 MIKE PENCE, Indiana, Ranking 
STEPHANIE HERSETH SANDLIN, South         Member
    Dakota                           STEVEN C. LaTOURETTE, Ohio
                                     KENNY C. HULSHOF, Missouri

























                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Opening Statements:
    1. Delahunt, Hon. William....................................     1
    2. Pence, Hon. Mike..........................................     2
    3. Davis, Hon. Artur.........................................     3
    4. LaTourette, Hon. Steven C.................................     4
    5. Herseth-Sandlin, Hon. Stephanie...........................     5
    6. Husholf, Hon. Kenny.......................................     6
II. Appendix:
    Amendment by Mr. Latourette..................................    31


ORGANIZATIONAL MEETING ON ADOPTION OF COMMITTEE RULES; CONSIDERATION OF 
 INTERIM REPORT; AND HEARING ON VOTING IN THE HOUSE OF REPRESENTATIVES

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2007

                          House of Representatives,
 Select Committee To Investigate the Voting Irregularities 
                                         of August 2, 2007,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:11 a.m., in Room 
H-313, The Capitol, Hon. William D. Delahunt (Chairman of the 
committee) presiding.
    Present: Representatives Delahunt, Davis, Herseth Sandlin, 
Pence, LaTourette and Hulshof.
    The Chairman. A quorum being present, the select committee 
will come to order.
    Today we are meeting to do three tasks: adopt our committee 
rules, adopt the internal report, and to hear for the first 
time--of what we expect to be multiple occasions--from the 
Office of the House Clerk. We will wait for the gentlelady from 
South Dakota, who was at her other select committee.
    I now recognize myself for 5 minutes to make an opening 
statement, but before I do, let me note I will then go to 
Congressman Pence as the Ranking Member. And in subsequent 
hearings, it would be our hope that just he and I would make 
opening statements. But on this initial hearing, any member of 
the panel that wishes to make an opening statement is most 
welcome.
    I would be remiss not to begin by thanking the Chair of the 
House Rules Committee, Louise Slaughter, and the Ranking 
Member, David Dreier, for making their hearing room available 
to the select committee.
    I also want to welcome everyone to this initial meeting of 
the select committee that has been mandated by the House to 
review roll call No. 814. I would note that none of the Members 
sought this particular assignment, but each of us appreciates 
the role and the significance of the House in our unique 
constitutional order, and recognize that the integrity of the 
system by which we cast our votes on the House floor is 
essential to the confidence that the American people have in 
this institution, aptly described as the people's House.
    We are all institutionalists. Each of my colleagues has 
served this House well. Each is admired and respected on both 
sides of the aisle and enjoys a reputation that reflects the 
finest traditions of this institution. I am genuinely honored 
to serve with them. But I do believe, though I am not naive, 
that this augurs well for a successful effort, for I have no 
reservations about the motives and bona fides of these Members, 
and I am confident that, at a minimum, we will be able to 
demonstrate a degree of civility and comity that reflects well 
on the House of Representatives and is expected by the American 
people.
    Today we will adopt a set of rules and an interim report 
that will yield order and efficiency, and ensure 
bipartisanship, cooperation, and, most importantly, 
transparency. This would not have been possible without the 
assistance of the Congressional Research Service. I would note 
that as the committee took stock of resource issues, the 
Ranking Member and I requested the assistance of CRS, and we 
have been indeed fortunate to have access to Judy Schneider and 
Mike Campbell, whose expertise is truly remarkable. They have 
been a superb resource as we get under way, and we are in their 
debt. Thank you, Judy, and thank you, Michael.
    The Chairman. With that, let me yield to the Ranking 
Member, the gentleman from Indiana, Mike Pence.
    Mr. Pence. Thank you, Mr. Chairman. And at this first 
formal meeting of the select committee to investigate the 
voting irregularities of August 2, 2007, let me say I am 
humbled to serve as the Ranking Member. I will seek to confirm 
the confidence placed in me by approaching this task with a 
firm commitment to fairness and effectiveness.
    I am especially grateful to serve with my Vice Ranking 
Member, Steve LaTourette of Ohio, and Congressman Kenny 
Hulshof, whose years of experience exceed mine, and whose 
reputations for integrity will, as the Chairman noted, greatly 
enhance our ability to move forward.
    Allow me, Mr. Chairman, to echo the esteem which you 
expressed for all the members of this committee. Based on the 
caliber of the Members appointed by the Democratic majority, 
including the Chairman, and given in evidence of our 
preliminary and informal discussions prior to this hearing, I 
am confident we will be able to proceed with this inquiry in a 
bipartisan manner that puts the interests of the American 
people over partisan politics.
    I am especially grateful for the Chairman's cooperation in 
the securing of resources for this committee and very much look 
forward to continuing to work with you and all the members of 
this committee to ensure that we have the resources necessary 
to conduct this investigation in a manner befitting the 
seriousness of the issues.
    The Constitution of the United States enshrines the right 
of every Member of the House of Representatives to vote on the 
floor of the House on behalf of the people they were elected to 
serve. This select committee has been charged with a solemn 
duty: to investigate voting irregularities on August 2, 2007. 
The integrity of the House of Representatives is completely 
dependent on the integrity of the vote that takes place on the 
floor of Congress. Every American is entitled to have a voice 
in the people's House and to know that their Representative's 
vote counts.
    As the ancients knew, honesty in measurement is central to 
the administration of justice. In the book of Leviticus that I 
read just this morning, it provides, quote, ``Do not use 
dishonest standards when measuring length, weight or quantity. 
Use honest scales and honest weight.''
    The events of August 2, 2007, where confusion and anger 
reigned on the House floor, represented a serious breakdown in 
the voting system of this institution, and the integrity of the 
means of measurement was called into question. That night the 
Republican minority voted to deny taxpayer-funded benefits to 
illegal immigrants in roll call vote No. 814. According to the 
voting machine and the minority, the Republican motion to 
recommit prevailed. According to the man holding the gavel and 
the majority, the Democratic majority prevailed.
    This conflict between parties, man and machine, must be 
thoroughly investigated. This select committee must follow the 
facts and let the chips fall where they may. Whether they lead 
to findings of an abuse of authority to benefit illegal 
immigrants, or to glaring holes in the rules of the House, or 
to other determinations, we will expose the truth of what 
happened and ensure the voting franchise of every Member of 
Congress is protected.
    And let me say as I close, Mr. Chairman, we will approach 
this task in a fair, thorough and solemn manner, for as the 
scholar Norm Ornstein wrote recently, quote, ``The dynamic here 
between the parties is not just game playing, it is serious 
business. The House is fragile enough that we could end up with 
truly nasty and counterproductive behavior deeply damaging to 
the country and the long-term operation of the Congress,'' 
closed quote.
    I look forward to working with my colleagues in both 
parties on this committee. I appreciate the spirit of 
cooperation and comity that has characterized our discussions 
to date. Members of the minority commit today to continue in 
this spirit to ensure that the Members, officers of the House, 
or staff who were responsible for this incident be held to 
account and to develop recommendations to ensure that this 
never happens again. We owe the American people and the 
people's House nothing less.
    The Chairman. Thank you, Mr. Pence. And let me turn to the 
Vice Chair of the select committee, the distinguished gentleman 
from Alabama, Artur Davis, and see whether he wishes to make 
any opening remarks.
    Mr. Davis. Mr. Chairman, thank you for recognizing me. I 
will be extremely brief because I know that we are here to 
begin this process today and not to orate. But let me just say 
a couple things by way of perspective.
    The first one is this: Many of the American people do not 
realize how exclusive this institution of the House of 
Representatives has been since 1789. As of this day, September 
27, 2007, less than 13,000 American citizens have ever served 
in this place. The smallest county in my congressional district 
has the same number of people. Many of the counties that many 
of us represent have substantially greater numbers of people. 
This is one of the smallest, most exclusive fraternities and 
sororities, if you will, in the world, and we are mindful of 
that, Mr. Chairman.
    We are also mindful of this solemn charge we have been 
given by our colleagues. Our colleagues voted overwhelmingly in 
a bipartisan manner to charge a group of Members to conduct a 
searching inquiry of the moment on August 2, 2007, when the 
routine turned unusual, and a process that we have come to take 
for granted experienced some unexpected bumps and turns.
    All six of us take this responsibility enormously 
seriously, and I echo what the Chairman and Ranking Member have 
said. We are honored. Not one of us sought out this assignment. 
This is the fourth committee for some of us. But we have all 
agreed to serve--if I can be so bold to say what I think all of 
us are thinking--we have all agreed to serve, because whenever 
the House is in question, whenever its practices are in 
question, Members have a stake in doing all that we can to 
ensure to preserve its integrity. And I am sure that is the 
spirit that will motivate us.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Davis. I will now go to the 
Vice Ranking Member of the select committee, the distinguished 
gentleman from Ohio, who, during the Republican era as the 
majority party, distinguished himself, on many occasions, as 
the presiding Member and someone whom I look forward to working 
with because of his special expertise and his exceptional 
talent, Mr. LaTourette of Ohio.
    Mr. LaTourette. Thank you very much, Mr. Chairman. As I was 
getting ready for this hearing last night, I began to think 
about--and I believe I am the oldest-serving Member, the Member 
who has been in the House the longest.
    The Chairman. You might be the oldest Member, actually.
    Mr. LaTourette. I was going to say I don't think I am the 
oldest Member, but this is my seventh term. I am a member of 
the historic Republican class of the 104th Congress. I had 
never served as a legislator before. I was a prosecuting 
attorney by nature, so a lot of the things I saw in 1995 were 
foreign to me. I had never encountered them.
    I remember going to Republican conference meetings, and 
hearing some of my new Republican friends say, ``40 years we 
have been in the wilderness, and now it is payback time. We are 
going to treat the Democrats the way they have treated us for 
40 years.'' Then, as I was here a little bit longer, about 6 
months later, I became friendly with a number of the people on 
the Democratic side. They would say to me, ``We were bad, but 
we were never this bad.'' I took that to heart.
    Then we sort of fast forward 12 years, and because of some 
missed cues on our part, the majority has now shifted again. 
The 110th Congress is an historic Congress in that we have the 
first woman Speaker of the House in the history of our country. 
And I think we are all honored to serve in this country. I know 
from a Republican perspective, it is nice that we have made 
history. Now let's get back to the way it was for 12 years.
    But I hear the same things. I hear some of my Democratic 
friends say, ``You abused us for 12 years; now it is payback 
time.'' And I hear some of my Republican friends say, ``We were 
bad, but we were never this bad.'' And that brings us to this 
committee and why I think while perhaps the world isn't 
watching, I hope that our colleagues who aren't serving on the 
committee are watching.
    During our first get-together a number of us on this 
committee said, in discharging its responsibility fully and 
fairly, the committee has the opportunity to bring the 
temperature down here on the House side, and I hope that is 
where we go. And I will tell you that there are a number of 
steps that we are going to have to take and a number of steps 
that we have already taken that give me hope. And I just want 
to outline those steps and tell our colleagues that aren't here 
today why they should be encouraged by what we are about to 
embark on.
    There are a number of things that didn't have to happen. We 
didn't even have to be in this room. When Minority Leader 
Boehner made the motion to create this select committee, the 
majority leader Mr. Hoyer could have moved to table it, and it 
would have been a partisan vote, and there never would have 
been a select committee. The majority chose not to do that. The 
majority leader said that he recognized that there were some 
difficulties with rollcall 814, and he didn't stand in the way 
of setting up the committee. I think that is an important thing 
to recognize and give credit to the majority for doing.
    The second thing that you and other Members have talked 
about, each side could have picked really partisan people to be 
on this select committee. And Mr. Pence quoted Mr. Ornstein's 
article. He predicted that this would be a 3-3 tie; we are just 
going to be partisans, we will pretend to be fair, but we are 
not going to get anywhere. And I don't think that is the case. 
I think the leadership of both parties deserves credit for 
employing people that, at least in my understanding, will 
attempt to be fair.
    And then lastly, after our last get-together, I was tasked 
to meet with Congressman Davis to talk about things like 
scheduling and how we will move forward, and I found nothing 
but cooperation, and I found nothing but a willingness to work 
together. And I think that we are off to a good first few 
steps, and I look forward to continuing this way. It is an 
honor to serve with you men and woman, and I look forward to 
it.
    The Chairman. Thank you, Steve. And let me go to my right 
and recognize the gentlelady from South Dakota, Stephanie 
Herseth-Sandlin.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    I will echo the comments previously made in terms of how I 
deem it an honor to serve with very distinguished and respected 
colleagues to look into the circumstances surrounding a 
particular rollcall vote, but also the broader charge of making 
recommendations that may be necessary to ensure that we can 
avoid such circumstances in the future; and to do this 
historically, to understand the practices, the traditions of 
the institution, of what happened on the House floor in the 
past, how we conduct our work, how we work with one another, 
and how much we rely on those who are on the House floor to 
help us as we cast our votes on behalf of our constituents.
    And as was commented upon as well, we have man, machine, 
and parties and competing circumstances, again, with this vote, 
but taking the broader view, laying the foundation, following 
the facts, and making recommendations that are good for the 
institution, that are fair to all of our colleagues, and 
certainly making sure that the commitment to our constituents 
and the integrity of the votes that we cast on their behalf is 
ensured for this Congress and Congresses to come.
    And the seriousness with which we all undertake these 
responsibilities on the select committee can't be overstated in 
terms of where the accountability will reside as we look into a 
particular rollcall vote, but, again, providing the clarity 
that may be necessary going forward. And I agree with my 
colleagues that the comity and cooperation that has already 
marked our work, that we anticipate would continue to mark our 
work, will impact the broader environment in which we work here 
in the House of Representatives.
    So thank you, Mr. Chairman, Ranking Member Pence, for what 
we have already accomplished in a relatively short period of 
time, and working with all of us to ensure that the process 
going forward with the select committee is one that is 
transparent, that is fair, and that is focused on the 
betterment of the institution.
    The Chairman. Thank you, Congresswoman. And let me now go 
to the gentleman from Missouri with whom I have worked in the 
past. The circumstances brought us together again on a 
difficult task, but one in which I know he will conduct 
himself, as he always does, in a manner that speaks well of his 
personal integrity, his independence and his fairness, and that 
is Kenny Hulshof.
    Mr. Hulshof. Thank you, Mr. Chairman. Thank you for your 
courtesies, thank you for your friendship. I appreciate that.
    It is humbling to be here with the caliber and integrity of 
the Members that are here. It is an unfortunate matter that 
such an event occurred in August that necessitates this select 
committee, but it is fortunate not just for the institution, it 
is fortunate for the American people the caliber of those that 
are here sharing the dais with me, with whom I am privileged to 
serve to get to the bottom of this matter.
    Mr. Delahunt, my friend, references the other occasion with 
which unusual circumstances brought us together. The last time 
I served in this type of investigatory capacity, it was, again, 
centering on a vote on the House floor; not voting 
irregularities, but the Medicare Modernization Act in November 
of 2003, and there were some allegations made by certain 
Members. And as a result, the Ethics Committee and the 
investigative subcommittee were impaneled. I was the Chair of 
that subcommittee, and Mr. Delahunt was fortunate enough to 
also share time.
    And as I recall, with reference to something you said, Mr. 
LaTourette, to some of the naysayers out there, I recall before 
that investigative subcommittee that there were those who 
predicted doom and gloom, predicted gridlock, predicted that 
the ethics process could never hold our peers accountable. In 
that instance it was necessary; the House rules required us to 
toil in confidentiality, so the public could not see what we 
were doing in that instance. But I believe that the process and 
the eventual report that admonished the then majority leader 
proved those pessimists wrong.
    I believe in this instance that we will go where the facts 
will take us; we will judge those facts accordingly and take 
whatever appropriate actions are deemed necessary. And I have 
no qualms at all certainly about the Chairman and about his 
dedication to that goal. I think, as everyone has said, the 
integrity of the institution is at stake, and we will, I 
believe, perform our service in a manner that will elevate the 
integrity. And I appreciate that, Mr. Chairman.
    I yield back to you.
    The Chairman. Thank you, Kenny. The first agenda item is 
the adoption of the select committee's rules. And before I 
recognize the gentleman from Alabama, let me thank the 
gentleman from Alabama, Mr. Davis, and the gentleman from Ohio, 
Mr. LaTourette, for their work. During the course of the past 
week, they have come together, and I think this was 
acknowledged by Steve LaTourette, and worked together in a way 
that I think befits what we have all been saying in terms of a 
common ethic to work in a way that is bipartisan.
    And with that, let me recognize the gentleman from Alabama.
    Mr. Davis. Thank you, Mr. Chairman.
    I will ask the staff to publish the document that we will 
submit for consideration labeled Rules of the Select Committee 
to Investigate the August 2, 2007, Roll Call Vote 814. And let 
me thank my friend from Ohio, Mr. LaTourette. Both of us were 
charged with the responsibility for coming up with the rules 
for this select committee, and we both believe that there was 
no need to reinvent the wheel. We believe that, given our small 
size and our charge to be expeditious, there were some minor 
tweaks that we needed to make to help us do our business in a 
more orderly fashion, but we arrived at an overwhelming 
consensus in how we should do this.
    The document being put in front of the Members and the 
staff today is very straightforward. In effect, what we have 
done, translated in plain English, is to adopt the rules of the 
normally governed regular committees of the House of 
Representatives with three exceptions. I will outline them.
    Every committee is charged with setting a regular meeting 
day. Clause number 1 states that the regular meeting day for 
this committee should be the first Thursday of each month at 9 
a.m. As all who are here are very well aware, the Chair has the 
discretion first, and the Ranking Member, to add to that, to 
task additional meetings to help us finish our business in the 
next several months. But the regular meeting time that we will 
establish will be 9 a.m. on Thursday. And again, the Chair will 
make decisions as to whether our next meeting will be 2 weeks 
from now, whether we will proceed every 2 weeks from this point 
on, or whether our schedule will be more truncated to that.
    The second provision deals with questioning witnesses. 
Obviously, we are a very small committee. I believe that at 
this point we are the smallest committee in the House of 
Representatives with only six members. The questioning time at 
which we have arrived, clause 2, is 30 minutes for each side. 
The Chair and Ranking Member shall determine how to allocate 
that questioning time, and, of course, as always, the Chair 
retains discretion to permit additional rounds of questions and 
additional questioning time. But the baseline should be 30 
minutes allocated to each side for 1 hour total.
    Final provision. Clause 3 refers to the time for submission 
of supplemental minority or additional views. The timeframe we 
have agreed on is 3 calendar days unless the committee should 
agree to a different time. That is the position of the 
committee Chairman and concurrence of the Ranking Member. 
Again, very simple, very expeditious.
    Mr. Chairman, Mr. LaTourette and I were also asked again to 
consider the question of a timetable, a template for how we 
intend to do our business, and we have decided to not publish 
that document, not to make it public. But there is a draft 
document that will be circulated internally to Members and 
staff that does lay out a projected schedule. For those who are 
here and who are interested, I will summarize it this way 
without getting into details.
    We intend to be expeditious. We intend to finish the public 
hearing phase of this work before the House adjourns this year. 
We intend to leave ourselves adequate time before the end of 
the year to complete a written report, which may or may not 
include supplemental minority views. But we intend to get the 
hearing phase of this finished before we adjourn.
    The schedule, Mr. Chairman, at which we have informally 
arrived, is one that will again look into the foundational 
work. As you will see today, we will have a witness who will 
not act as a fact witness, but who will lay a foundation for 
the August 2 vote and various technology and machinery 
associated with it. We will move forward. We will have 
witnesses who will talk about the rules and customs of the 
House with respect to voting, and then for the end of our work, 
Mr. Chairman, we will have fact witnesses.
    Mr. LaTourette and I have arrived at a tentative list of 
fact witnesses, fact witnesses defined as those who have 
specific knowledge of the events in dispute that night, staff 
members and relevant Members. And once again, that list has 
been circulated internally.
    If it is appropriate, Mr. Chairman, I would like to yield 
now to Mr. LaTourette for any comments on the rules or any 
amendment he may offer.
    [Text of the amendment may be found in the Appendix.]
    The Chairman. Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Davis. I want to, 
again, publicly indicate what a pleasure it has been to work 
with you on this process.
    We just have one minor dispute that will be the subject of 
an amendment whenever the Chair feels it is appropriate, 
dealing with the quorum of the committee.
    I think we have provided a good rules package, and I think 
there has been great input on both sides, and we are ready to 
move forward. That is all I have to say about the rules.
    On the schedule, I want to make a couple of observations 
about the schedule, and that is, I think that it is our work 
that can really help to educate other Members of the House as 
to what the traditions are here. Everybody is busy. A lot of 
people don't know how the electronic voting system got 
installed, a lot of people don't know what the rules are, and 
then that leads to some people getting mad when maybe they 
shouldn't get mad. So I think that, by laying the foundation 
today with the Clerk's Office, then moving through historians 
in the next couple of hearings, and talking about the 
precedents in the House, that the only cautionary note--and I 
know that you have been great in working with us on resources--
the schedules Congressman Davis and I talked about do 
contemplate having staff in place, staff for the committee by 
the time we finish the history section so we can appropriately 
prepare for the gathering of the facts relative to August 2.
    And I want to publicly thank the Clerk of the House Ms. 
Miller in not only what she and her staff have done to date, 
but, echoing my comments in my opening remarks, a lot of people 
think that because the Democratic Party is the majority, that 
she is the Democratic Clerk of the House. Well, she is not. She 
is the Clerk of the House, and the way that she and her staff 
have discharged her responsibilities to this moment in time in 
saving evidence and identifying to Congressman Davis and I who 
on the dais might know things, might not know things is really 
exemplary. And I want to thank you publicly for that.
    Mr. LaTourette. And whenever you are ready, Mr. Chairman, I 
have an amendment. It is not at the desk because we don't have 
a desk yet. But I have an amendment.
    The Chairman. We have a table. Let me call up the draft of 
the committee rules and ask unanimous consent they be 
considered as read and open to amendment at any point.
    Mr. LaTourette. And I have such an amendment.
    The Chairman. Mr. LaTourette.
    Mr. LaTourette. I believe that Members have the amendment. 
The amendment deals with the issue of quorum that we were not 
able to agree on. The standard rules of the House for 
committees----
    Mr. Pence. This is a parliamentary inquiry of the Chair. 
Since we don't have a clerk, is there--is it appropriate to 
have the clerk report the amendment, or simply have a Member 
read it?
    The Chairman. Why don't I read the amendment then?
    Mr. LaTourette. Perfect.
    The Chairman. Someone suggested I should become a clerk.
    ``Amendment to the rules of the select committee to 
investigate the voting irregularities of August 2, 2007, 
offered by Representative LaTourette. Strike (3) in the second 
sentence and insert (4). Add at the end of the following new 
section 4, A Quorum: For the Purpose of Taking Testimony and 
Receiving Evidence, One Member from the majority and one Member 
from the minority shall constitute a quorum unless otherwise 
agreed to by the ranking minority member.''
    Mr. LaTourette, your amendment.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    As has been proposed by Mr. Davis, the standard rules of 
the House would indicate a quorum of this committee would be 
three Members. And again, standard committee rules would 
indicate that for the purposes of taking testimony, you would 
only need two Members and those Members could be of the same 
party.
    We have only one evenly split committee currently in the 
House today and that is the Ethics Committee, and those rules 
indicate that they cannot actually begin proceedings or take 
testimony unless the majority is present. And that, by 
definition, because it is five and five, indicates that there 
has to be six Members, and somebody has got to be from the 
other party. You can't get to six without having both 
Republicans and Democrats in the room.
    This simple change to the quorum--I can't imagine a 
situation where all six of us wouldn't be present, but were 
there such a situation, we are proposing that a quorum for the 
purposes of receiving testimony and evidence be two rather than 
three at a minimum, and that we have to have at least one 
Republican one Democrat.
    And I yield back.
    Mr. Davis. Mr. Chairman, I will claim time to speak in 
opposition to the amendment and just to give some perspective 
to the committee. It is sometimes difficult to appreciate and 
translate these rules which were written in English into the 
plain language in which we speak in every day, so I will try to 
do that.
    So the difference in the rules, as they have been submitted 
in the LaTourette amendment, is a fairly simple one. Normally 
the rules don't contemplate a bipartisan quorum. Rules 
translated to a committee of this size would establish a quorum 
for taking testimony of not less than two. Mr. LaTourette's 
amendment would add the additional requirement that it be a 
bipartisan quorum, one Democrat and one Republican.
    And I certainly understand Mr. LaTourette's perspective, 
and it goes without saying that our colleagues meant this to be 
an evenly balanced body. The resolution, frankly, could have 
been amended on the floor to give Democrats the majority on 
this committee. My leadership chose not to do that. If I can be 
so bold as to speak for them, I suspect it was because they 
knew it was important that the final product of this select 
committee not be one that was rendered on a party-line basis, 
but there be a final product that reflected bipartisan 
consensus. That was the aim and the goal of this committee. So 
we did reserve the advantage that the voters delivered to this 
committee.
    I think I 100 percent agree with Mr. LaTourette. I cannot 
imagine a circumstance where we would proceed to take testimony 
and not have a bipartisan representation in this room. For us 
to do that would, frankly, flout the understanding that our 
colleagues charged us with. We presented the rules as they are 
again to describe for consistency what the rules employed are 
by the committees, and because other committees don't include 
the partisan point, we have chosen not to do that or to have a 
bipartisan requirement. So I will make an observation, Mr. 
Chairman, and then yield back.
    The Chairman. The ranking member Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman. I will be very brief.
    I take the gentleman from Alabama's point to heart. I think 
it is a valid point to say a majority quorum contemplates that 
if one party is in the majority. But in this case I believe Mr. 
LaTourette's amendment is appropriate, Mr. Chairman. And just 
to ensure the confidence of the membership and the broader 
public in the bipartisan nature of our deliberation, I would 
heartily endorse the LaTourette amendment.
    The Chairman. Well, in that spirit, if the gentleman yields 
back----
    Mr. Pence. Yield back.
    The Chairman. And that is fair, Mr. Pence. And we were 
talking about bipartisanship and comity. I will support the 
amendment by the gentleman and----
    Mr. Davis. Then I will withdraw any objection, Mr. 
Chairman.
    The Chairman. Thank you.
    So if there is no further discussion, the question is to 
the draft committee rules as amended by Representative 
LaTourette--I certainly demonstrated my knowledge and 
familiarity with the rules of the House. I think that 
underscores the observation by Mr. LaTourette that this select 
committee provides all Members an opportunity to educate 
themselves as well as the people about the practices and the 
procedures in the rules of the House.
    On the amendment, all those in favor say aye. Aye.
    Having no need for a roll call vote, the amendment is 
adopted.
    If there is no further discussion, the question is on 
agreeing to the draft committee rules. Those in favor, say aye. 
Aye.
    Those opposed to, say no.
    Hearing none, in the opinion of the Chair, the ayes have 
it, and the select committee's rules are adopted.
    The second agenda item is adoption of the interim report. 
As Members know, the interim report must be filed by September 
30, which is Sunday, and it is my understanding the House is 
not expected to be in session tomorrow, which is Friday.
    At our preliminary meeting we requested that the 
Congressional Research Service prepare a draft or interim 
report and then provide that document to Mr. Pence and myself, 
which CRS has done. We have disseminated it to our colleagues 
on both sides, and the document before the select committee 
today reflects any changes suggested by committee members to 
that draft.
    Is there any discussion or amendments to the interim 
report?
    Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman.
    Let me just say that I am very grateful for the approach 
which you endorsed early on in some of our preliminary 
discussions that we would fulfill our statutory obligation in 
the September 30, 2007, report without going forward into 
debates about facts and controversies that the committee would 
not have the ability to have investigated up to that point.
    I believe this report lays a solid foundation for us to 
begin our work, and I believe it will serve to inform the 
Members of Congress about our work to date and the manner 
whereby we intend to go forward. And that, in combination with 
the deliberations of today, I believe represents a good start.
    I would raise the issue that while we did move a recitation 
of the rules cited by CRS as relevant to this discussion to an 
appendix. I would like to engage the Chair in a colloquy on--
about the inclusion of these rules in an appendix to the report 
as descriptive and not proscriptive. I think we don't know yet, 
Mr. Chairman, what rules of the House will bear upon this 
inquiry until we enter into a detailed investigation of the 
facts and circumstances surrounding what occurred on August 2.
    I am mindful, though, of the good-faith effort of my staff 
at the Congressional Research Service to simply identify rules 
that may pertain to our inquiry, but I might welcome a colloquy 
with you about ensuring the Members in the minority that the 
appendix is in a very real sense merely a good-faith effort to 
describe the rules that we believe at this moment to be 
relevant to the inquiry.
    The Chairman. If the gentleman would yield?
    Mr. Pence. Pleased to yield.
    The Chairman. I would concur with your interpretation. 
Clearly, you know, this is the product by the Congressional 
Research Service, and it is not meant to be comprehensive 
without further review by the committee. I would also note that 
it does not draw any conclusions.
    My own observation was with the naming of the select 
committee involving the term ``irregularities,'' I think if I 
had been aware of the naming of the committee while the 
resolution was being considered on the floor, I would have 
raised the issue that that was conclusory, and it was really 
the task or the responsibility of this select committee to 
determine what the facts are.
    But that is of no great consequence, and I certainly concur 
with your interpretation of the appendix as drafted by the 
Congressional Research Service.
    Mr. Pence. Reclaiming my time, Mr. Chairman.
    Thank you for that clarification. The only other issue I 
would raise as we work through this draft is the issue that you 
mentioned in your opening statement and our colleagues 
mentioned, and that is the question of resources. There is a 
line on page 3 that makes specific reference to a copy of a 
letter.
    I know there has been a good-faith effort on the part of 
the majority and minority staff to speak with one voice to 
request the leadership of both parties in the Congress to find 
a means either by resolution or through leadership accounts to 
fund this committee. I don't believe we arrived at an agreement 
with either leadership on that, I don't believe we are quite to 
the letter yet, but I want to renew to the committee and to any 
that would be looking on that we need the resources to engage 
in the kind of solemn and serious and fair inquiry that I 
believe every member of this committee deemed this morning to 
be appropriate in this matter.
    And so with that, the Chairman may need to make, by 
unanimous consent, a change to the draft relevant to the 
resources issue, but I will take the opportunity to renew my 
profound concern that we resolve that issue, as Mr. LaTourette 
said, well before we arrive at the truly fact-gathering aspects 
of this inquiry, or it will, in my judgment, both hamper our 
ability to complete our work and, more likely, simply delay our 
ability to complete this inquiry in an expeditious manner.
    And with that, I would yield back.
    The Chairman. I thank the gentleman for his observations. I 
concur, and again, I would hope that by Monday or Tuesday of 
next week, given our rather hectic schedule today and the fact 
that we are in recess tomorrow, that we will have that letter 
to our mutual satisfaction completed and forwarded for 
expedited action by the leadership of both sides. And I am 
confident that that can occur.
    If there is no further discussion, the question is on 
agreeing to the interim report. Those in favor, say aye. Aye.
    Those opposed, say no.
    In the opinion of the Chair, the ayes have it, and the 
interim report is agreed to.
    Without objection, the staff is authorized to make sure 
such changes are made as may be necessary to reflect the 
actions of the select committee. Hearing no objection, so 
ordered.
    In order to meet our September 30 deadline and to provide 
all Members of the House with rapid access to the interim 
report, Mr. Pence and I have agreed that we will insert the 
interim report in today's Congressional Record. The committee 
can at a later time have it printed.
    Mr. Pence. Mr. Chairman?
    The Chairman. Sure, Mr. Pence.
    Mr. Pence. I am sure this falls into the category of 
parliamentary inquiry, my inquiry to the Chair. I would request 
the Chairman, as with all other committees, to ensure a 
transcript also be published in the normal course of business 
proceedings of the select committee.
    The Chairman. Without objection.
    The third agenda is to hear from the Office of the Clerk. 
The Office of the Clerk provided the select committee with a 
letter listing an initial inventory of 21 items which the 
Clerk's Office has preserved for use in the committee's 
investigation. I will have to consult for a moment with staff.
    Russell Gore in the Office of the Clerk is here to explain 
the items listed in the letter. He is accompanied by the 
distinguished Clerk of the House, Lorraine Miller.
    Mr. Gore.
    Ms. Miller. Morning, Mr. Chairman----
    The Chairman. Good morning.
    Ms. Miller [continuing]. And members of the select 
committee. We are delighted to be with you today and to explain 
some of the items that we have preserved.
    If you will allow me to just make a couple points as we get 
involved in this. I take personally the charge of being the 
Clerk of the House seriously. And our main objective is to take 
the votes, tally those votes, and preserve the records of the 
U.S. House of Representatives, and we do that.
    One of the other things that I want to assure you, we look 
at this, as Mr. LaTourette mentioned, in a nonpartisan way. We 
are your agents to make sure that your votes are recorded and 
reported accurately, and so we take that very, very seriously. 
Our staff is excellent. I must say that in all candor. We take 
our job very, very seriously, and politics really doesn't come 
into play even in any part of our work for you.
    Ms. Miller. I wanted to take a second just to walk you 
through one of the things that I wanted to do, and I pledge to 
you the openness of the Office of the Clerk. Taking it 
seriously is one thing, but executing that and giving you the 
kind of information and support you need for your work we will 
do. And I hope we have tried to demonstrate that.
    One of the things that we did on the night of this event, I 
sent an e-mail out before the House resolution was passed to 
all of our staff to say let us save everything you have, no 
matter what it is, no matter if--we didn't even try to make a 
determination if it was relevant or not. That didn't matter. We 
wanted to preserve everything that we could in order to be of 
help. So the documents and the data that we preserved were done 
immediately because of that Resolution 611.
    So we were very broad. There may be duplicates. We erred on 
the side of preservation.
    There are three offices that are basically involved, and I 
can go through this fairly quickly. There are three offices of 
the Office of the Clerk, of our nine offices, that are 
basically involved. The Office of the Official Reporters--
voila, the ladies that are taking the stenographic work; the 
Office of the Legislative Computer Services; and our 
Legislative Operations personnel.
    I took the liberty of asking the Chief of each of those 
offices, Joe Strickland of Official Reporters; the Legislative 
Computer Services' Goldey Vansant, who is accompanied by our 
Deputy Clerk, Ed Sorensen; and our Legislative Operations 
person, Frances Chiappardi, and Frances has taken the liberty 
of bringing a couple of her guys, Kevin and De'Andre, who were 
there the night in question. So if you have any questions of 
them, they are here and available.
    So the documents that are preserved come from these three 
groups: From Official Reporters, the Legislative Computer 
Systems, and the Legislative Operations staff.
    So in the Official Reporters, what you have is a transcript 
of the floor proceedings, all of the documents from the 
initial--from the transcription to the transmission and then 
what actually goes to GPO, the Government Printing Office.
    You have the steno files that are electronic files that 
contain the shorthand transcription. You have the shorthand 
files, which are then converted to full English, and then they 
are saved to text files. Those text files actually get printed, 
so you see the paper of those text files. We have those for 
you.
    And then we send to GPO KSLUGs. These are the technical 
terms about--these are the partial segments that go and are 
actually inserted in the Congressional Record. So periodically 
during the day, KSLUGs are sent to GPO for printing.
    There is also--you have the audio files. These are the 
recordings of the floor activity through the feeds by 
electronic equipment and by cassette. And that is what you have 
from the Official Reporters.
    Do you want to add anything, Russell, to that?
    Mr. Gore. No. Thank you very much.
    I believe that that--and those, that item, that description 
consists of essentially most of what are items 1 through 14 of 
the August 4th letter that you have been looking at.
    So I think what we thought would be helpful--so the Clerk 
has explained the steno files, the text files, the KSLUGs, and 
as you will see, there is some redundancy in items 1 through 
14. That is in part because even if we had five versions or 
five copies of it, we saved everything.
    We thought it might be helpful if the members of the 
committee have questions regarding items 1 through 14, with 
that background, maybe ask us, and we could provide some 
further.
    Ms. Miller. And Mr. Strickland is here. Joe. He is here.
    If you have any questions, we would love to----
    The Chairman. I would call on any member of the committee 
that has any inquiries to make, and at the suggestion of the 
Clerk----
    Mr. LaTourette. If it is appropriate, a couple of things I 
do have some questions about, just what the stuff is that has 
been retained. But I thought it would be instructive as well, 
Mr. Chairman, it might help other Members as we move forward, 
we have a poster over here that we took from the night of the 
vote before all hell broke loose, that has people sitting in 
their chairs, and I thought it may be helpful if we put up the 
poster and ask the Clerk to identify what jobs the people at 
the dais have and what they do.
    See, everybody is calm. Nothing bad is happening here.
    But I think we all know the presiding officer, the speaker, 
Mr. McNulty.
    Mr. Gore or Madam Clerk, could you identify the other 
people at the dais and what their jobs are?
    Ms. Miller. The display, the TCR, blocks the stenographic 
folks in the well. Those are the folks that are actually 
recording the proceedings.
    And then on the rostrum, there are a number of us.
    The Chairman. Would you be kind enough to stand?
    Ms. Miller. Sure.
    The Chairman. I don't know if that causes problems in terms 
of the recording.
    Ms. Miller. Kevie is the reading clerk. And then----
    Mr. LaTourette. What is her job?
    Ms. Miller. She actually is multifaceted. What you actually 
see her doing is getting up and reading a bill, if there is an 
amendment or a bill is being introduced. But what Kevie and 
Kevin, who is also a reading clerk, what they are very expert 
at is knowing and anticipating your floor actions so they can--
if there is a--some kind of motion that is coming up, they 
anticipate that to make sure that they are prepared, 
anticipating the presiding officer and what the Parliamentarian 
may suggest.
    Mr. LaTourette. During the course of the vote, it is my 
understanding, and I want you to tell us, but that the reading 
clerk is involved in changes; is that correct?
    Ms. Miller. Yes. Kevie will announce--the reading clerk 
will announce, for instance, if a Member decides to change a 
vote off ``aye'' for ``no'' for a Member, or, Mr. Delahunt 
votes aye. And so especially when the Members come to the well, 
this is a--this is an interesting operation of what happens in 
the well.
    The Chairman. If I could interrupt.
    Is that the customary seat for the reading clerk?
    Ms. Miller. Yes. That is the customary seat for the reading 
clerk.
    The other person that is really key--there are two other 
people that are really key: the seated tally clerk, who happens 
to be De'Andre here, and the standing tally clerk.
    When Members are voting, when they come to the well, that 
standing tally clerk then takes the Member, writes their name 
on the card, hands it to the tally clerk, who notes it, puts 
the district on there, the roll call number of that vote, that 
particular vote, and they hand that well card to the sitting 
tally clerk. The seated tally clerk is at the computer, at the 
EVS system itself, and as Members vote their well cards, that 
gets entered into the computer.
    Mr. LaTourette. And there is nobody standing, but my 
understanding on August the 2nd, Kevin Hanrahan was the tally 
clerk, and I think he is sitting at the moment because we are 
not doing a vote. So he takes the well cards and hands them up 
to De'Andre, and what does De'Andre do during a vote?
    Ms. Miller. Well, when he hands the card to them, De'Andre 
then enters the Member's vote into the EVS system. So there are 
fluctuations because he is entering those well card votes into 
the system as the vote is going.
    Mr. LaTourette. Does he, as the seated tally clerk, turn 
the machine off and on? How does it even go on?
    Ms. Miller. He controls it, yes.
    Mr. LaTourette. Is there anybody else at the dais in this 
photograph that is involved in the actual taking of a 15- or a 
5-minute vote from your office?
    Ms. Miller. The taking of?
    Ms. Chiappardi. No. The tally clerk records the----
    Ms. Miller. She records.
    Mr. LaTourette. And the woman in yellow is--not Kevie. The 
other woman in yellow.
    Ms. Miller. That is Gay.
    Mr. LaTourette. What does she do?
    Ms. Miller. She works for the Parliamentarian. She is the 
timekeeper. She is the person that says to the presiding 
officer, you have this much time left on a vote, or, you need 
to recognize--she is kind of the eyes and ears of the presiding 
officer.
    Mr. LaTourette. On the other side of Mr. McNulty, just for 
the record purposes, that is the Parliamentarian?
    Ms. Miller. Yes.
    The Chairman. Will the Chairman yield for a moment?
    The function of the standing clerk or the standing tally 
clerk is to receive from the Members----
    Ms. Miller. From the well.
    The Chairman [continuing]. From the well the voting--the 
voting card, if you will.
    Ms. Miller. Yes.
    The Chairman. And that standing tally clerk then turns 
around and submits it to the sitting tally clerk.
    Ms. Miller. Yes. After--usually that tally clerk will then 
note on there the roll call vote that is in process that he is 
voting on--he or she is voting on.
    The Chairman. But the only function, if you will, of the 
standing tally clerk is to receive it from the Member and to 
turn around and physically hand it to the sitting tally clerk.
    Ms. Miller. And at the end of the vote, the presiding 
officer indicates that the vote is finished, that standing 
tally clerk will then write out the tally.
    The Chairman. That----
    Ms. Miller. Based on what they have in the machine.
    The Chairman. Standing or sitting?
    Ms. Miller. Standing. And then will give it to the 
Parliamentarian, who will then give it to the presiding 
officer.
    Mr. LaTourette. Thank you very much.
    I don't have any questions on the picture. I do have a 
couple of quick questions about the letter, and I appreciate 
the Chair's indulgence.
    The WAV files that you have identified you obtained, and my 
understanding is those are audio files that are maintained by 
the Office of the Official Reporter, and they may have 
conversations with you, Mr. Gore. They may or may not--they may 
contain more audio than went to C-SPAN or less.
    Have you retained those in a way that there is a cassette 
that each member in this committee could have to listen to 
those WAV files? Have you put the 45 minutes together?
    Mr. Gore. We have not yet put anything together in the way 
you have described. Part of what we have done with the evidence 
is it has been stored. We haven't done anything with it so that 
once the committee decided what they wanted we would then, with 
the committee's approval, make copies. It hasn't been done.
    If I could just clarify--the way--after you and I spoke, we 
went back and we looked into this, and the way we understand it 
is that the microphones on the floor, while they are all the 
same microphones, they actually have several different lines 
that go into them. So, for instance, the video and the audio, 
the video control is one line that is controlled by I believe 
it is the Office of the Chief Administrative Officer, whereas 
the WAV files that you are referring to, those come from a 
different line in the same microphones.
    The person who turns them on and turns them off, for 
instance, when the person gets up to speak at the podium, may 
turn them on slightly before or slightly after because it is a 
different person. So, to the extent they may contain more 
information, it would be based on something of that nature.
    Mr. LaTourette. That is what I understood.
    Mr. Chairman, I would just ask in that regard that we all 
have a copy of the videotape of that night just so I can get 
myself ready, and I would think the other Members might want to 
do that, too. If we could ask the Clerk's Office--if you want 
unanimous consent or whatever--to see if we can't ask the 
official recorder to put together these audio files for the 
time in question on either side of when the vote started, when 
the vote ended, and then we can determine if they had more or 
less information that may be available on the videotape.
    The Chairman. Yeah. I would at this point take Mr. 
LaTourette's request as a unanimous consent request, and there 
is no objection, and I would request the office to----
    Mr. Pence. If the gentleman will yield on this point, I 
would like to follow up.
    Very quickly on these WAV files, where are these recorded 
from? We understand that there is one audio track with--that is 
preserved. That was the audio track of what was broadcast?
    Ms. Miller. Right.
    Mr. Pence. I have asked Lorraine, is it your understanding 
that with regard to video/audio tracks, the only audio tracks 
that have been preserved is the audio track of the video file 
that was broadcast; is that your understanding?
    Ms. Miller. That is my understanding, but I need to--I 
believe that is the case. Yes. We will double check, but----
    Mr. Pence. That was represented to us in some informal 
conversations down in the, for lack of a better term, the 
control room for the video operations.
    To Mr. LaTourette's point, because I will have a few of my 
own questions on my own time, but to follow up on Mr. 
LaTourette, these WAV files represent different audio tracks, 
and my question is what microphones are you referring to the 
WAV files being collected from? Are these the floor 
microphones? Are they microphones on the dais itself?
    Ms. Miller. Let us defer to Joe. Joe Strickland is our 
Chief of Official Reporters.
    Mr. Strickland. Mr. Pence, the steno machines that our 
reporters use on the floor actually have built into them a 
digital recording device, and there is a line run right into 
the steno machine. And that feed that going directly into the 
reporter's machine is coming from the microphones that are on 
the floor controlled by--as Russ was saying, controlled by the 
LCS folks upstairs turning them on and off when they are 
needed.
    There is no ambient mic like this sitting on a table 
someplace. There is no open room mic. This is a means--and she 
is doing it right now. It is a means for the reporter to have 
better hearing. It is difficult to hear on the floor.
    Mr. Pence. Let me ask--and this may be subject to the 
technical hearing later with some of the technical people--just 
from your impression, is what the stenographer is hearing, is 
that different than what the Members are hearing or someone 
watching on television might be hearing, or do you think there 
is----
    Mr. Strickland. Only to the extent--it is the same 
microphone. Only to the extent that our feed may be turned on 
and turned off at a different time than the feed that C-SPAN 
may turn on. But it is the same microphone.
    Mr. LaTourette. I just have two more questions.
    In your letter to us with the list of 21 things, you 
identify 7 employees of the office that you have mentioned who 
you asked that their e-mails be retained. And my question, in a 
response after our meeting, Mr. Gore, you said nobody wants to 
read anybody's e-mails, but you indicate that some of these e-
mails, they contain privileged communications. I am wondering 
what would the privileged communication be? I get what personal 
stuff is, but what would be a privileged communication?
    Mr. Gore. Well, for instance, on communications that I, as 
the counsel, may have had with the Clerk. Additionally I also--
my e-mails would contain--I have a dual role from having 
previously worked in the Office of House Employment Counsel, 
where we represent individual offices, and there are 
communications in those e-mails that would be attorney-client 
privilege.
    That is largely what I was referring to without--of course, 
we haven't looked at these e-mails so that it is conceivable 
there could be some other privilege that would apply, but that 
is the one I was referring to.
    Mr. LaTourette. My question is could you perceive any 
privileged communications dealing with the circumstances of 
this roll call 814?
    Mr. Gore. I can't.
    Mr. LaTourette. Last question I have, Mr. Chairman, on 
these 21 things, and you described the tally sheet before, 
Madam Clerk, I don't see a tally sheet that was retained from 
that evening; is that right?
    Ms. Miller. There wasn't a tally sheet. No. There wasn't 
one.
    Mr. LaTourette. Just so I am clear, the standing tally 
clerk never prepared a tally sheet for this vote?
    Ms. Miller. No, because we were still voting, and there 
were votes going on in the well.
    Mr. LaTourette. I got that. But first of all, my question 
is did you retain a tally sheet? The answer is no. And the 
second question is was there ever a tally sheet?
    Ms. Miller. No.
    Mr. LaTourette. Thank you, Mr. Chairman.
    The Chairman. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Let me pick up on the very last question Mr. LaTourette 
asked, and let me try to make sure that I understand.
    Exactly what is a tally sheet?
    Ms. Miller. A tally sheet is the sheet that the tally clerk 
with the votes would actually give to the Parliamentarian to 
give to the presiding officer to announce the vote. And that is 
based on--it is a combination of all of the votes from the 
well, from our voting stations, and that is what we--that is 
what we announce. And that always is the same that we have in 
the computer in our EVS system.
    Mr. Davis. What triggers the writings--the tally sheet is 
handwritten?
    Ms. Miller. Yes.
    Mr. Davis. What event triggers--first of all, what 
individual; is it the tally clerk who literally writes in the 
information on the----
    Ms. Miller. No. The tally clerk writes it.
    The Chairman. The standing or the sitting?
    Ms. Miller. The standing one.
    Mr. Davis. What event literally triggers the tally clerk to 
fill in the final tally sheet?
    Ms. Miller. The presiding officer has a litany of things 
they may say: Is there a Member who wishes to vote? Is there a 
Member in the Chamber who wishes to change a vote?
    Based on those kind of declarations by the presiding Chair, 
that is the way we proceed to end the vote.
    Mr. Davis. So let me, I guess, state it this way and see if 
you agree with this.
    The standing tally clerk prepares the sheet when he or she 
believes that the vote is about to be called; is that correct?
    Ms. Miller. Yes.
    Mr. Davis. And the tally clerk would not prepare a tally 
sheet in the normal course of business if he or she did not 
believe that a vote was about to be called?
    Ms. Miller. Absolutely.
    Frances, is that----
    Ms. Chiappardi. Yes. Normally the tally clerk will--I do 
this.
    The Chairman. Could you identify yourself?
    Ms. Chiappardi. I am Frances Chiappardi. I am the Chief of 
Legislative Operations.
    Normally what we do is when the Chair asks if there are any 
changes, that signals to the tally clerk that the time actually 
is usually at zero, and that they are going to start to close 
the vote. And so what we do is as soon as he said, Are there 
any changes, the tally clerk will--if no one is down in the 
well, will turn--will close the vote stations.
    Mr. Davis. Let me stop you at that point.
    Is it the discretion of the tally clerk to decide whether 
or not to close the vote stations as you understand the way 
that the job works day in and day out?
    Ms. Chiappardi. Yes, it is. Well, the tally clerk closes 
only when the Chair says, Does anyone wish to change their 
vote, and there are Members that are not coming down into the 
well or into the Chamber. A lot of times people will yell, 
``One more, one more,'' and so the tally clerks will leave the 
electronic stations open.
    Mr. Davis. I will yield.
    Mr. Pence. If the gentleman would yield, I would simply ask 
the Chair if the gentleman from Alabama's inquiry, while 
certainly being asked of the committee, but to ask our current 
witness what the discretion of the position is more relative to 
the practice. It may be useful for us to focus these witnesses 
on what the practice is. We will be hearing shortly from 
witnesses about what the tradition of the institution is.
    Mr. Davis. Sure, and I certainly will take that correction.
    Reclaiming my time. I am trying to--I don't know that we 
will hear from you ladies and gentlemen again. I want to make 
sure that I know what the job is, what the job description is 
of these individuals.
    Ms. Miller. And we do invite the committee, this is a very 
interesting process, and to understand how the EVS system 
works, we would be delighted.
    For months I have been sitting out there on the floor 
observing it. Having worked around here a number of years is 
one thing, but to actually know how that--how the voting system 
works is fascinating and something that we invite you to 
investigate.
    The Chairman. It is my intention to take a view, if you 
would, and, you know, accommodate Members' schedules as well as 
the floor schedule, just simply to walk down on the floor and 
have the appropriate personnel explain to us in very tangible 
terms what happens.
    Mr. Davis. Let me go back to my questions about the tally 
clerk again.
    The absence of a tally sheet, it infers what; or what do 
you imply, Ms. Miller, from the absence of a tally sheet?
    Ms. Miller. The vote is still open. We have not closed the 
vote if we don't have a tally sheet.
    The presiding officer--we look for the particular ups and 
the particular downs. If there is no activity in the system 
where Members are coming in to vote one way or the other, and 
it is stagnant and stable based on the presiding officer's 
instructions of what he says while he is presiding, that is 
what we--that triggers our actions.
    Mr. Davis. Just to clarify. Mr. LaTourette points out there 
is not and has not been a tally sheet in connection with the 
disputed August 2nd vote.
    Ms. Miller. No.
    Mr. Davis. Never was a tally sheet?
    Ms. Miller. No.
    Mr. Davis. Let me shift to the board itself, which is what 
Members are able to see when we are in the Chamber.
    I understand we are not getting to the factual issue, but I 
want to clarify the procedure.
    When ``final'' flashes across the board, when the word 
``final'' flashes across the board, and there is a number, what 
event triggers the display of the word ``final''?
    Ms. Miller. When ``final'' flashes across the board, that 
means that we are in the process of closing down the voting 
stations, okay.
    So on the floor--there are 46 voting stations on the floor 
that are available for Members to vote. And so ``final'' means 
that we are closing down the voting stations and then the--we 
are moving to a final process of closing out that vote. But 
that doesn't mean, necessarily, that the vote is closed.
    Mr. Davis. So the word ``final'' could appear on the board 
without a vote being closed?
    Ms. Miller. Yes.
    Mr. Davis. What member of the staff makes the determination 
as to when ``final'' would be displayed?
    Ms. Miller. Well, again, everything is triggered by the 
presiding officer and what that presiding officer says when 
they are in the Chair, which triggers our reaction to go to 
step 2, step 3 or step 4 in order to close the vote.
    So the voting stations may be open, but Members come to the 
well or--the voting stations may be closed, but Members still 
come to the well even with ``final'' up there. So it depends on 
what the instructions we get from the presiding officer.
    Mr. Davis. So the display of the word ``final'' itself does 
not have any determinative consequence?
    Ms. Miller. No.
    Mr. Davis. Okay.
    Ms. Chiappardi. That is correct.
    What normally happens when the final--the tally clerk is in 
the process of closing the vote down, and the Chair is saying--
you know, the tally clerk is listening to the Chair, and 
apparently the Chair probably was in the process of saying, 
``The motion is agreed to, and without objection,'' and while 
they are saying that, the tally clerk has a screen which they 
are--there is a button that they click. You go to terminate 
vote, set time to final, and release the boards and the summary 
boards.
    Mr. Davis. And who literally does that.
    Ms. Chiappardi. The tally clerk.
    Ms. Miller. The seated tally clerk.
    Ms. Chiappardi. The seated tally clerk.
    The Chairman. Will the gentleman yield for a moment?
    Why the necessity for displaying ``final'' when, in fact, 
it is not final? I mean, is there--does it just pop up?
    Ms. Miller. Well, it is----
    The Chairman. But it is the tally clerk that triggers the 
display that----
    Ms. Miller. For us it is a signal that we are going--this 
is ending the vote for us technically. And that has been 
traditionally the way the system has been set up. And so we 
are--it actually signals that we are on the road to a final 
vote and closing it out.
    Mr. Davis. Let me try to shift gears to another aspect of 
the physical evidence. Those of us who are on the floor 
obviously can look at the well, and we can observe whether 
there is activity, whether there appears to be people picking 
up cards to change their votes.
    Tell me which of these items would be the visual 
preservation that night of people being in the well around the 
vote cards. Are there any items that would capture that moment 
for our review?
    Ms. Miller. We do have a DVD that captures that, and then 
one of the things that we did, we preserved the well cards. So 
we have the original well cards that the Members cast their 
votes on.
    Mr. Davis. And this is my last question before I yield. If 
you can look at the list of 21 items, let me direct you to 
number 19. And I am--I am uncertain what it means. That is why 
I ask about it. It says, 18 well card votes including 2 that 
were not processed from Majority Leader Hoyer, which was a 
duplicate of Minority Leader Boehner.
    What does that mean?
    Ms. Miller. Well, Mr. Hoyer, as I understand it, decided 
that he wanted to vote no and had already voted no. And so it 
was a duplicate.
    Mr. Boehner was going to vote no because I believe he 
wanted to reconsider.
    Mr. Davis. And a motion to reconsider, just so we are clear 
on the rules, that has to be made by a Member who is on the 
noncarrying side. I am sorry, on the carrying side. The motion 
to reconsider comes from a person on the carrying side.
    Ms. Miller. So we save those.
    The Chairman. Mr. Pence.
    Mr. Pence. Thank you.
    I want to thank the Clerk for your service. I know I speak 
for everyone on the panel. We appreciate the dignity and 
integrity with which you operate your office every day and your 
staff.
    Ms. Miller. Thank you.
    Mr. Pence. Let me ask, with regard to your testimony today, 
you said you alerted your staff to, quote, `Save everything you 
have,' and that was, quote, `done immediately.'
    I wasn't entirely clear on what precipitated your request 
to preserve documents and e-mails. Was it the events of August 
2nd, or was it the passage of the resolution to form this 
select committee on August 3rd?
    Ms.  Miller. Actually I sent the e-mail before the passage 
of the Resolution 611 simply because I wanted us, irregardless 
of what--we had no idea that the select committee was coming 
up, but I wanted us, as an office, to know what happened. And 
so that is why I initially--I wanted to make sure we had 
everything that we could, possibly could, to make sure we knew 
what happened.
    Mr. Pence. Let me--there has been some talk of this--the 
standing tally clerk, the seated tally clerk and this business 
of tally sheets.
    There were--with the Chairman's indulgence, and I would 
stipulate that we haven't established this time line yet, but 
in looking at a video that every member of the committee has 
viewed, in a 2-minute period of time, the vote was actually 
called twice by the Chair at 214 and 214, one of which may have 
simply been inadvertent.
    My question to you is you said this morning there were no 
tally sheets. Were there no tally sheets relative to either 
call, to your knowledge?
    Ms. Miller. No.
    Mr. Pence. During that 2-minute----
    Ms. Miller. No. No tally sheets. No.
    Mr. Davis. Will the gentleman yield for clarification?
    Mr. Pence. I would be happy to.
    Mr. Davis. And I think this is probably inadvertent 
phrasing on the part of my friend, the Ranking Member, but 
obviously we are not here to put into evidence or to make any 
representations regarding the events, the factual disputes that 
night. I simply wanted to clarify the ranking member's 
observations about there being two instances where the vote was 
called that was possibly a point of dispute, if I am not 
correct, Mr. Pence.
    Mr. Pence. Reclaiming my time. It is possibly a point of 
dispute, and I concede the point. I am not interested at this 
point in beginning the factual debate, but only to clarify 
whether or not there was--at any point in the relevant time of 
vote calling--there was no tally sheet.
    Ms. Miller. There was no tally sheet.
    Mr. Pence. No tally sheet to this final?
    Mr. Hanrahan. No. No tally sheet.
    Ms. Miller. No.
    Mr. Pence. If the record can reflect that.
    Ms. Miller. Kevin Hanrahan was the standing tally clerk on 
the evening in question, and De'Andre was the seated tally 
clerk.
    Mr. Pence. And he testified from the gallery here that 
there was no tally sheet anytime.
    Ms. Miller. Yes.
    Mr. Pence. Let me get on to what interests me as much, if 
not more, and that is this business of electronic voting and 
the electronic voting system.
    I am wondering very much when I, as a Member, go to the 
floor and vote, when I vote by a card, there is the light by my 
name on the wall, and as I watch it, the light board that 
flanks the Chamber changes almost instantaneously.
    Ms. Miller. Yes.
    Mr. Pence. When I turn a card in to the standing clerk, 
there is a time lag where I presume someone in your 
organization is entering that data that appears on the wall?
    Ms. Miller. Yes.
    Mr. Pence. Can you describe the differences? Is there a 
human discretion in the electronic voting system between when a 
Member votes and when it is displayed on either of the light 
boards in the Chamber? And what is the role of the inputting in 
the electronic voting system at the dais?
    Ms. Miller. When a Member goes to the voting station and 
inserts his card, presses this vote choice, that is an 
instantaneous mechanical recording of what that Member votes. 
Instantaneously. You stick the card in the receptacle; you vote 
aye, nay, or present; it is instantly displayed.
    The difference in the well card voting is that that 
Member's name and the actual vote, all of that has to be 
reported. That takes a few seconds, and that is where the delay 
comes in.
    Then the system----
    The Chairman. Will the gentleman yield for a moment?
    It has to be typed in?
    Ms. Miller. He has a keyboard. He has an actual keyboard.
    Mr. Pence. And who precisely does that in the picture?
    Ms. Miller. De'Andre here, who is our seated--the seated 
tally clerk. Before him, right below him is a computer. It is a 
computer, and he sits there and he types it in. He goes to 
different kinds of programs to find Mr. Pence, and then types 
in ``Pence'' and your vote, and then that gets recorded on the 
display.
    Mr. Pence. And as we proceed we will explore the rules of 
the House, Mr. Chairman, but I find the rules of the House 
bereft of any reference to electronic voting, to my knowledge. 
And it seems that what you are suggesting is there is human 
involvement, the Clerk's Office is involved when paper ballots 
are submitted, but there is no human involvement in the 
electronic voting system; is that----
    Ms. Miller. No. Technically correct, but it is not 
something of a discretion of--the seated tally clerk is not 
sitting there saying, oh, well, I am going to delay putting 
this in.
    Our object here is to expeditiously enter a Member's vote 
and get it displayed as quickly as they can, and then it gets 
shown on display boards.
    Mr. Pence. Now, as I said in my opening statement, this 
was--this is a conflict in some respects between parties and 
men in the Chair and the machine. It is much more complex than 
that. But I am very interested in one more question, and it--
the gentleman from Alabama explored this effectively, but I 
would like to hear it again.
    The term ``final'' or--and I am not sure I know whether it 
says ``time final'' or ``final''--that appears on the 
rectangular light board in the Chamber.
    Ms. Miller. Yes. On the sides.
    Mr. Pence. Can you say who activates that? I mean, many of 
us have been on the floor for very long votes, and the term 
``time final'' never appeared on the board. Is it a striking of 
the gavel that initiates that? Is it the paper process of the 
tally clerks? Is it the tolling of a certain period of time?
    I am just--given the importance of that term that appeared 
that night, I think we all might agree of the inflammatory 
nature of that term appeared, who pushes that button?
    Ms. Chiappardi. The tally clerk.
    Ms. Miller. The tally clerk. The seated tally clerk.
    Mr. Gore. It is important to understand that, and when the 
committee sees the voting process, there is a menu screen that 
the tally clerk has which has a number of different steps, and 
actually there are five steps to go through. They are not 
procedural. They are technical steps to do--set the vote to 
final. And setting to final, which I believe actually the 
screen says, is, I think, step 3 in the process. But the vote 
is not closed at that point. That is just the third step in the 
process.
    So I just want to make sure that the committee understands 
that this is part of the several steps, and the tally clerk 
doesn't say, Okay, I am now going to determine that the vote is 
final. The tally clerk does that in part of the process, and, 
of course, the tally clerk can explain this in more detail when 
the tally sheet is being completed and the vote is being 
called.
    The Chairman. Would the gentleman yield?
    Mr. Pence. I would be pleased to yield.
    The Chairman. During the course of voting, unless I am just 
oblivious, there have been multiple occasions where on the 
display on the side I have seldom noted the word ``final'' 
being displayed. I mean, that would appear to vary. Why on some 
occasions is ``final'' displayed and would appear, and on the 
vast majority of cases it is not displayed?
    Ms. Chiappardi. What happens--it is normally because 
another Member comes into the Chamber, and the Chair affords 
that Member the opportunity to vote.
    The tally clerk is in the process of closing the vote down 
because the Chair has read 214 to 199, and the bill is passed 
and without objection. And then someone will ultimately come in 
the Chamber, and the tally clerk at that time would click the 
button, terminate vote, set time to final, release the summary 
reports. And in that process, it is supposed to go like this: 
The Chair will say, Stop, and while they are in that process, 
there is no way you can take that click back because they were 
going through to shut the vote down. And so they are stopped 
by, ``One more, one more,'' and affording a Member the 
opportunity to vote.
    And so sometimes it will say ``time final,'' though it is--
you know, the time has run out, the vote is not closed.
    Mr. Davis. Will the gentleman yield?
    Mr. Pence. Reclaiming my time, I would be pleased to yield 
to Mr. LaTourette.
    Mr. LaTourette. Having been in the chair for 12 years, in 
my experience it is always the same five people who come into 
the Chamber and yell, ``One more, one more.''
    The Chairman. They will not be named.
    Mr. Davis. I will be extremely brief.
    I want to make sure I understand exactly the last point 
that was made. My understanding, and this is from recollection 
of sitting in the Chamber, rarely does ``time final'' appear on 
the board. Is there an agreement about that, that it is a 
fairly rare event for ``time final'' to be displayed in the 
normal course of amendments and motions?
    Mr. Gore. I believe. And I understand the confusion, I 
believe that, and we will clarify this, but it is always 
displayed, but it is usually that the five-step process is so 
quick that it is instantaneous.
    Ms. Chiappardi. Right. You don't see it. And the tally 
clerk--some of the tally clerks actually wait until the Chair 
gavels down the vote and then clicks through those four or five 
steps just simultaneously.
    Mr. Davis. You say some of them do. What is the other 
practice?
    Ms. Chiappardi. Sometimes when we have a new tally clerk, 
someone who is, you know, fairly new, they are not--they are 
not as fast; they are a little slow.
    Mr. Pence. Reclaiming my time.
    Yield to Mr. Hulshof.
    Mr. Hulshof. This five-step process, I recall obviously 
hundreds and hundreds of occasions with which we vote, and 
being in the Chair is the last step. Where is the last, the 
point of no return? Because it is my recollection that as 
Members, even tardy Members, once the display boards go dark, 
you cannot retrieve that. Is that the last click of the button, 
if you will, that--the point of no return that you cannot 
retrieve that?
    Mr. Gore. That is the fifth step. It is confirm and release 
of the display boards, I believe, is the fifth step.
    Ms. Miller. And then they are gone.
    Mr. Hulshof. But on any of the previous steps, the tally 
clerk could actually go back and redo or retrace those steps 
if, and as you talked about, the Chair is indulgent with those 
tardy Members. It is just that last or final step that once--I 
mean, that is truly the final because you cannot retrieve or 
bring back up that electronic board. But you can--up until that 
point, you can go back, and so even if--and you are correct, 
and my recollection is that often that word ``final'' is just 
briefly appearing, but it is part of the process.
    Thank you, Mr. Pence.
    Mr. Pence. Reclaiming my time.
    I would just again thank the Clerk and her team for their 
testimony today. It has been very illuminating.
    I do find myself, Mr. Chairman, thinking your thought about 
a walk-through would be helpful, if not----
    The Chairman. Critical.
    Mr. Pence. At some point as I tried to look at the process 
here, and I think about what has been collected and the cards--
you know, whether or not a reenactment at some point would be 
helpful.
    Ms. Miller. Sure.
    The Chairman. A Civil War reenactment.
    Mr. Pence. Let me ask one further question.
    Mr. LaTourette. One other thing just for the Members that 
just struck me when you talked about a reenactment. I didn't 
know this until I talked to Mr. Gore, but they can actually 
give you a computer printout of where everybody voted that 
night, what time you voted, if you stuck your card back in to 
confirm your vote, and we actually can reconstruct this vote 
and where people voted based upon that, and I think we may want 
to get there.
    Ms. Miller. Thank you. I was about to say that, because we 
do--a lot of times we have Members that will repeatedly stick 
their card into the voting stations just to check the vote, and 
we can tell you which voting station they stuck that card in 
and what time they did.
    Mr. Davis. We can tell you which Members, too, by the way.
    The Chairman. Even when they check their vote.
    Ms. Miller. Yes.
    Mr. Pence. Reclaiming my time.
    I would alert Members, Mr. Chairman, I think in the 
September 20th communication from your office, I think the 
Member-by-Member voting station or information was sent to the 
committee, and I might offer it for the record, submit it for 
the record.
    The Chairman. Without objection.
    Mr. Pence. Lastly, the whole subject of these, the 
documents that you have collected immediately, and I do find 
myself wanting to commend you for not waiting on Congress to 
inquire into the event that occurred on August 2nd. I commend 
you for taking strong leadership in your office to ascertain 
what occurred on an administrative level and preserving 
documents.
    Where are the 18 well cards, all of that which is described 
in the----
    Ms. Miller. They are locked in our Legislative Operations 
Office under lock and key.
    Ms. Chiappardi. I have them.
    Ms. Miller. Yes. They are locked up. Everything--everything 
we have has been locked and secured because we just wanted to 
make sure, until we received instructions from the committee on 
how you wanted to use them, we haven't tampered with them or 
anything. We have locked them up.
    Mr. Pence. That concludes my questions. I thank the Clerk 
and her team, Mr. Chairman. And I yield back.
    The Chairman. Stephanie.
    Ms. Herseth Sandlin. Yes.
    Thank you for your testimony and responses to the questions 
my colleagues have proposed.
    We have explored quite a bit here in terms of the broader 
practice of what each member of your office and the roles that 
they perform, and, of course, there is a tendency to kind of 
want to get at the specific events and procedures as to how 
they relate to the circumstances surrounding this roll call.
    You had sent us a PowerPoint presentation as well. Do you 
have published updated documents or other materials for each 
office within your office? You mentioned sometimes, you know, 
the things get entered more slowly when you have new employees, 
new clerks coming on. So I would like to see and perhaps make 
part of the record anything in your office that is printed for 
training materials for new people in each office that go into 
detail that you utilize for everyone to understand the five-
step process here of closing a vote.
    I mean, we appreciated how you set it out in a very concise 
way in the PowerPoint, but I think we should make part of the 
record as really official standard operating procedures from 
your office as to the description of each person's 
responsibility and how that relates to the Parliamentarian's 
Office, how it relates to the presiding officer.
    Are you aware of those materials being available, copies, 
in the Parliamentarian's Office and in the Speaker's Office? 
Are they shared among all three offices involved here?
    Ms. Miller. I don't think so. No.
    Ms. Herseth Sandlin. And we will certainly be taking 
testimony from folks, Parliamentarians, because I think what 
also is important isn't just the description, the understanding 
of each of the four people in your office as the vote is going 
on, but then what is--what is the understanding of the 
Parliamentarian specifically as it relates to these tally 
sheets; what is the understanding of the presiding officer?
    I think we have, you know, some published materials here 
that help provide guidance, but whether or not everyone is on 
the same page as to what is standard operating procedure, I 
think, is the area we continue to need to explore here, and we 
are laying the foundation today. So if we could get those 
materials that are available. So I think that is, you know, 
more of the specific things were explored already, but I did 
want to make sure that I posed the question of what is 
available in written format for new people in your office, and 
how they are being trained, and what describes their 
responsibilities on the House floor during the vote.
    Okay. Thank you. Thank you, Mr. Chairman.
    The Chairman. Steve.
    Mr. LaTourette. I just have one clean-up that is again 
involving Mr. Gore and you, Madam Clerk. You have identified 
the people that might make good fact witnesses relative to the 
events of August the 2nd, and in that picture you have 
identified for us Mary Kevin Niland, who is the reading clerk 
on that particular evening; and De'Andre, who is the seated 
tally clerk; Kevin, who is the standing, even though he is not 
standing in the picture; and you also indicated Ed Sorensen, 
who is the Deputy Clerk.
    Is there anybody else from your operation that you think 
would be useful for this committee to hear from relative to the 
facts and circumstances in the operation of the vote on August 
2nd, or is that it?
    Ms. Miller. No, sir. Those are the folks that are most 
directly hands-on folks that you really would benefit from 
hearing from.
    Mr. LaTourette. Thank you very much.
    Last thing, Mr. Chairman, I would say is that Congressman 
Davis had a great idea, in my opinion, during some of our 
discussions, and that is that we might want to, as we collect 
fact witnesses, send a letter out to the membership of the 
House under our signatures saying any Member--so they feel 
included--any Member that has something to say about what you 
saw, or you think you have information that would help this 
committee reach its conclusions--I think you guys did that in 
the Medicaid Part D vote. As I remember you sent out a letter, 
and I thought Congressman Davis says he always does that, and 
that is an excellent suggestion, and I would ask unanimous 
consent, if that is the appropriate thing, to have the 
committee do that.
    The Chairman. I think that is an excellent suggestion, and 
I would request that yourself and Mr. Davis draft that letter.
    Mr. Davis. I thought we might be volunteering ourselves.
    The Chairman. I think that is an excellent suggestion.
    Let me note that I found this very informative, 
illuminating, and the Clerk's Office might want to consider 
having a similar on-the-floor exposition of the process itself 
for the membership, because, again, I can assure you that many 
Members are ignorant of how this process works. And I know that 
I have a number of subsequent questions for further 
clarification that I am not going to pose at this point in 
time, but I think most Members would be candid and acknowledge 
that they are ignorant of this system, and it could be very, 
very informative. So I offer that as a suggestion.
    Ms. Miller. Yes, sir. And Mr. Blumenauer has sent the--sent 
us a letter signed by several Members wanting just such a 
demonstration. But I agree with you. I sit out there sometimes 
and just having casual conversations with Members about what is 
going on in the rostrum, and you would be surprised at how much 
they don't know.
    The Chairman. Ms. Miller, I would not be surprised.
    Ms. Miller. But we have--but I do want to say one thing. I 
believe emphatically that our system is sound. Our EVS system 
is a very good sound system. It has been upgraded over the 
years. We have invested quite a bit so that we can accurately--
you can actually take those votes, we can tally those votes, 
and we can assure you that our system is very good. And we have 
a great crew of people who maintain it.
    The Chairman. I have no doubt about the quality of the 
personnel.
    I think it would be helpful to the committee if you could 
provide the committee with the dates of those upgrades and what 
the enhancements amounted to in terms of the efficiency and the 
effectiveness of the system.
    Ms. Miller. We will.
    The Chairman. Any further questions?
    Well, the Chair thanks the panel. As I indicated, Ms. 
Miller, Mr. Gore, you have been very helpful. I want to thank 
my colleagues on the panel for their work in this matter, and I 
particularly again want to thank Mike and Judy from CRS, 
because we would not have--we wouldn't have been here today 
with a draft report and a set of rules without their guidance 
and assistance, and we look forward to your continued help and 
cooperation.
    Mr. Pence. I would just echo your sentiments about our Judy 
Schneider and her team at Congressional Research Service. We 
are without the resources at this point in the life of this 
select committee now organized. We would simply not have been 
able to meet our statutory obligations that we have met in the 
business portion of these hearings. So I am grateful to them, 
very grateful to the panel.
    And, Mr. Chairman, after you get your daughter married off, 
I am looking very much forward to a vigorous schedule of 
hearings and inquiries and a resolution to this issue.
    The Chairman. Thank the gentleman, and the select committee 
will stand in recess.
    [Whereupon, at 10:58 a.m., the select committee was 
adjourned.]
                            A P P E N D I X

                              ----------                              


   Amendment to the Rules of the Select Committee to Investigate the 
                Voting Irregularities of August 2, 2007

                       Offered by Rep. LaTourette

    Strike ``(3) '' in the second sentence and insert ``(4)'';
    Add at the end the following new section (4):
      ``(4) Quorum. For the purpose of taking testimony and 
receiving evidence, one Member from the majority and one Member 
from the minority shall constitute a quorum, unless otherwise 
agreed to by the ranking minority member.''

</pre></body></html>
